TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Changing Strategies Led to the Termination
                       of the My IRS Account Project



                                         August 12, 2009

                              Reference Number: 2009-20-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 12, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Changing Strategies Led to the Termination of the
                             My IRS Account Project (Audit # 200820030)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) established and followed adequate internal controls to ensure efficient and
 effective management of the My IRS Account (MIRSA) project development activities. This
 review was included in the Treasury Inspector General for Tax Administration Fiscal Year 2009
 Annual Audit Plan under the major management challenge of Modernization of the IRS.

 Impact on the Taxpayer
 The MIRSA project was designed to improve the IRS’ ability to meet taxpayers’ needs by
 developing secure online procedures for electronic tax return interaction. The intent of the
 project was to develop a project that would provide taxpayers a means to securely view their tax
 account and return information online, as well as provide tools for self-service assistance. It was
 also intended to be used as a prototype for future delivery of new web-based projects.
 Successful implementation of this effort is essential to support taxpayers’ ability to electronically
 fulfill their tax responsibilities and is critical to the long-term success of the IRS Modernization
 Program. However, the decision by the IRS to terminate deployment of the MIRSA project puts
 the goals of the project at risk as well as the approximately $10 million spent to develop it.
                            Changing Strategies Led to the Termination of the
                                        My IRS Account Project




Synopsis
The IRS initiated the MIRSA project (initially called the Internet Customer Account Services
project)1 in April 2006. The project was intended to provide taxpayers with an online application
to view, access, update, and manage their tax accounts as part of the requirements of the IRS
Restructuring and Reform Act of 19982 and the Electronic Government Act of 2002.3
The IRS generally followed project management guidance while developing the MIRSA project.
For example, a business case was developed, project scope and development activities were
detailed in a Project Management Plan4 and a Work Breakdown Structure, and regular oversight
of project progress was accomplished during monthly meetings of the Customer Service
Executive Steering Committee or Information Technology Project Control Reviews. In addition,
the Project Management Plan identified dependencies for the development of the MIRSA
project.
The first release of the MIRSA project, which would allow taxpayers to view their tax account
information online, was developed and near deployment when the IRS decided to terminate the
project. The IRS Strategic Plan for 2009-2013 was presented at the same time the MIRSA
project was being readied for deployment, and IRS executives decided to reexamine the project
for its ability to fully meet both taxpayer and IRS strategic needs. As a result, to ensure that a
long-term strategy was in place before proceeding with the MIRSA project or other online
projects, the IRS approved the termination of the MIRSA project in December 2008, near the
project’s scheduled deployment date. This decision occurred after 32 months of development
and the expenditure of approximately $10 million to build MIRSA Release 1.
Also, the IRS has not yet developed an enterprise-wide electronic authentication strategy and
solution to ensure secure online interactions. The MIRSA project team intended to use the
electronic authentication solution to ensure taxpayers could securely interact online through the
MIRSA project for viewing and modifying tax information. Because the IRS did not have an
enterprise-wide electronic authentication solution, the MIRSA project team developed an interim
solution that was to be used for Release 1.
In addition, Department of the Treasury guidance5 requires that formal termination procedures be
developed and operative in the event a project is discontinued or terminated. However, the IRS


1
  On June 24, 2008, the Customer Service Executive Steering Committee voting members approved the name
change of the Internet Customer Account Services project to My IRS Account for all releases.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  Pub. L. No. 107-347, 116 Stat. 2899.
4
  See Appendix V for a glossary of terms.
5
  Treasury Directive 84-01, Information System Life Cycle, Version 3.0, dated March 2002.
                                                                                                              2
                         Changing Strategies Led to the Termination of the
                                     My IRS Account Project



did not formally develop a project disposition or reactivation plan for the MIRSA project that
addressed all facets of archiving, transferring, and disposing of the system and its data.
The IRS expressed the intent to reuse most of the hardware and functionality of MIRSA
Release 1 in a future project resurrection. However, at the time we completed our review, the
IRS had not developed a tangible plan or a time period for restarting the MIRSA project.
Additionally, there were no formal proposals to use the hardware or functionality that were
developed for the MIRSA project in any future information technology endeavors. If the IRS
does not soon develop a comprehensive and well-researched strategic plan to further develop and
deploy the MIRSA project and/or related projects, the IRS may not realize the maximum benefit
from its $10 million investment.

Recommendations
To facilitate a possible future deployment of the MIRSA project, the Chief Technology Officer
should work with the Commissioner, Wage and Investment Division, to complete a long-term
strategy for the MIRSA project. If the project is restarted, the project should be quickly
deployed in order for the IRS to realize the maximum benefit from its $10 million investment by
reusing the hardware and functionality developed for MIRSA Release 1. The Chief Technology
Officer should also ensure that a strategy to develop and deploy an enterprise-wide electronic
authentication solution is developed as quickly as possible to allow online projects that require
secure access, such as the MIRSA project, to be deployed without experiencing similar costly
delays, and ensure formal project termination procedures are developed for information
technology projects that are shut down prior to deployment.

Response
IRS management agreed with our recommendations. The IRS is currently developing a
comprehensive electronic strategy that will identify a set of electronic services for taxpayers, tax
professionals, and other partners. The MIRSA project is among the electronic services being
considered and, if it is determined the MIRSA project should be deployed, the IRS will address
the components outlined in the recommendation to maximize taxpayer benefits. Also, the IRS
plans to develop a strategy for delivery and deployment of an enterprise-wide electronic
authentication solution for all customer channels. Lastly, the IRS has created a project
shutdown guide for projects that are shut down prior to deployment. The new guide was
approved on May 14, 2009, and provides instructions for archiving, transferring, and disposing
of a system and its data. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or

                                                                                                   3
                       Changing Strategies Led to the Termination of the
                                   My IRS Account Project



Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                           4
                                 Changing Strategies Led to the Termination of the
                                             My IRS Account Project




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The First Release of the My IRS Account Project Was
          Developed and Near Deployment.................................................................Page 3
          The My IRS Account Project Was Terminated Prior to Deployment ..........Page 4
                    Recommendation 1:……………………………………………Page 6

          An Electronic Authentication Strategy and Solution Needs
          to Be Developed............................................................................................Page 6
                    Recommendation 2:……………………………………………Page 7

          Formal Project Termination Procedures Need to Be Developed..................Page 7
                    Recommendation 3:……………………………………………Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Glossary of Terms .................................................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
                   Changing Strategies Led to the Termination of the
                               My IRS Account Project




                            Abbreviations

E-authentication      Electronic Authentication
IRS                   Internal Revenue Service
MIRSA                 My IRS Account
                            Changing Strategies Led to the Termination of the
                                        My IRS Account Project




                                            Background

The Internal Revenue Service (IRS) initiated the My IRS Account (MIRSA) project in
April 2006. The project (initially called the Internet Customer Account Services project)1 was
designed to improve the IRS’ ability to meet taxpayers’ needs as part of the requirements of the
IRS Restructuring and Reform Act of 19982 and the Electronic Government Act of 2002.3 The
IRS Restructuring and Reform Act mandated that the IRS develop secure online procedures
allowing taxpayers to file electronic tax returns and review tax account information online by
December 31, 2006. The Electronic Government Act called for Federal Government agencies to
promote usage of the Internet and other information technology to improve Government services
to the public.
The MIRSA project was intended to provide taxpayers with an online application to view,
access, update, and manage their tax accounts and was to be the prototype for future delivery of
new web-based projects. The MIRSA project was planned to be released in two consecutive
versions, or releases, as follows:
    •   Release 1: The first release was to allow taxpayers limited online access to view their
        account information. The planned functionality included the ability to view and print tax
        account and return information, order transcripts, research payment data, view links to
        the Internet Refund Fact of Filing4 and the Online Payment Agreement web-based
        projects, and obtain IRS customer service information.
    •   Release 2: The second release was designed to expand functionality of the first release
        by providing ‘payoff amount’ tax account information. The release was expected to
        reduce manual paperwork processing by providing taxpayers with user-friendly, online
        versions, thereby converting several of the most frequently used IRS tax forms, such as
        Application for Automatic Extension of Time to File U.S. Individual Income Tax Return
        (Form 4868), Change of Address (Form 8822), and Power of Attorney and Declaration of
        Representative (Form 2848), into online electronic formats. In Fiscal Year 2005, the IRS
        received 10.33 million in combined submissions from these frequently used forms.
The IRS launched the Internet Refund Fact of Filing and the Online Payment Agreement projects
in Calendar Year 2002, both of which have experienced significant use by taxpayers. However,

1
  On June 24, 2008, the Customer Service Executive Steering Committee voting members approved the name
change of the Internet Customer Account Services project to My IRS Account for all releases.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  Pub. L. No. 107-347, 116 Stat. 2899.
4
  See Appendix V for a glossary of terms.
                                                                                                          Page 1
                        Changing Strategies Led to the Termination of the
                                    My IRS Account Project



there are relatively few support tools available online for taxpayer use, specifically
account-related support tools. Therefore, most taxpayers still get their tax account information
by calling the IRS toll-free number. Currently, taxpayers have the option to either speak with an
IRS Customer Service Representative or use the automated self-service telephone projects.
However, taxpayers occasionally experience long wait times in obtaining their information using
the telephone because each IRS Call Center has a limited number of employees to assist
taxpayers. The MIRSA project would provide taxpayers with new online, self-service tax
account features that can handle the transaction types that are not adequately addressed by the
existing automated telephone projects.
This review was performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, during the period August 2008 through
March 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. However, we did
not perform a full-scope audit of the MIRSA project because, during the course of our audit
fieldwork, the IRS terminated the project prior to deployment of Release 1. We communicated
the final results of our review and suggestions for improvement to Modernization and
Information Technology Services organization officials on March 4, 2009. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                          Page 2
                         Changing Strategies Led to the Termination of the
                                     My IRS Account Project




                                  Results of Review

The First Release of the My IRS Account Project Was Developed and
Near Deployment
Release 1 of the MIRSA project was fully developed and near deployment when the IRS decided
to terminate the project in December 2008. The MIRSA project was intended to emulate an
online banking experience by displaying tax account data over the Internet. The functions to be
offered by the project were modeled after the IRS automated telephone projects (e.g., View
Credit, View Debit, PIN), the Internet Refund Fact of Filing, and other web-based account
projects. It also would have allowed taxpayers to submit an online request to have tax account
transcripts mailed to their address of record. Figure 1 provides examples of features and
capabilities of MIRSA Release 1.
       Figure 1: Examples of Features and Capabilities of MIRSA Release 1

                         Features                                       Capabilities
     Security and authentication features are             Research capabilities are provided for
     implemented for all taxpayers’ accounts.             taxpayers for historical tax return and
     Specifically:                                        account information to be viewed by tax
     ¾ View all available online credit and debit         year. Specifically:
        payments, which may be more than the              ¾ Obtain tax transcripts using the
        telephone automated self-service projects.           United States Postal Service mail.
     ¾ Access links to the Internet Refund Fact of        ¾ View, print, and save tax return
        Filing and the Online Payment Agreement              transcripts in an electronic format.
        projects through a pass-through authentication    ¾ Search for specific tax payments or
        scheme. The links to these projects will enable      view listings of previous tax
        refund inquiries and payment agreements to be        payments.
        accomplished.
     ¾ Access detailed online help screens during each
        session.
   Source: MIRSA Project Management Plan version 1.9, dated November 25, 2008.

Once taxpayers were successfully identified and authenticated online, the project would have
allowed them to access their individual tax return information using a secure session from the
Internet. The MIRSA project was developed to retrieve and display tax return information for
multiple tax years by line item. It would have provided information on tax payments; amended
returns; and other subsequent adjustments, penalties, and interest. It also would have provided


                                                                                               Page 3
                        Changing Strategies Led to the Termination of the
                                    My IRS Account Project



links to more sensitive data such as balances due, the Online Payment Agreement project and
publications, and the refund inquiry project.
The MIRSA project team generally followed the IRS Enterprise Life Cycle provisions to
adequately control system development projects. For example, a MIRSA project business case
was developed, project scope and development activities were detailed in a Project Management
Plan and a Work Breakdown Structure, and regular oversight of project progress was
accomplished during monthly meetings of the Customer Service Executive Steering Committee
or Information Technology Project Control Reviews. In addition, the Project Management Plan
identified dependencies for the development of the MIRSA project.

The My IRS Account Project Was Terminated Prior to Deployment
Release 1 of the MIRSA project was completed and near deployment when the IRS decided to
terminate the project in December 2008. At about the same time that this release was scheduled
to be deployed, the IRS Strategic Plan for 2009-2013 was developed with a renewed focus on
taxpayer experience. One of the three strategic goals was to “improve service to make voluntary
compliance easier.” The Plan calls for the IRS to take the following service-specific actions:
   •   Incorporate taxpayer perspectives to improve all service interactions.
   •   Expedite and improve issue resolution across all interactions with taxpayers, making it
       easier to navigate the IRS.
   •   Provide taxpayers with targeted, timely guidance and outreach.
   •   Strengthen partnerships with tax practitioners, tax preparers, and other third parties in
       order to ensure effective tax administration.
In conforming to the new Plan, IRS executives decided to reexamine the MIRSA project for its
ability to fully meet taxpayers’ needs. After reviewing the functionality of the project, the
executives decided a long-term strategy should be in place before proceeding with the MIRSA
project and, therefore, terminated the project.
The MIRSA project team did encounter some challenges outside of project control during the
development of Release 1 that delayed completion of the Release from the originally scheduled
January 2008 date until December 2008. The nature of these delays is presented in Figure 2.




                                                                                             Page 4
                            Changing Strategies Led to the Termination of the
                                        My IRS Account Project



                         Figure 2: MIRSA Project Deployment Delays

        Nature of the Delay                           Reasons for Delay                    Delayed
                                                                                       Deployment Date
    Development of New Portal               The first two delays were caused by           July 2008
    Environment and Electronic              technical dependencies (waiting on
  Authentication (E-authentication)        delivery of the new Portal system and
              Solution                       development of an online security
                                            solution), both of which were going
   Development of Internet Tax                                                           August 2008
                                                through strategy evaluations.
  Authentication Solution in Place
       of E-authentication
    Perform Additional Usability         The third delay was due to the inability of   December 2008
    Testing and Development of             the IRS to handle the projected large
     MIRSA Toll-Free Helpline             amount of taxpayer inquiries due to the
                                                        new release.
Source: Interviews held with IRS officials during audit fieldwork.

The MIRSA project team was eventually able to overcome these conditions and the first release
of the MIRSA project was completed and near deployment when the IRS decided to terminate
the project. However, the delays did push the project back far enough that its deployment
coincided with the development of the IRS Strategic Plan.
The Enterprise Life Cycle requires that information technology projects develop a strategy that
considers business needs of all stakeholders. An enterprise strategy should be developed in
project planning activities that are performed during the vision and strategy phase. During the
initial phase, the information technology proposal is developed and IRS executives consider
whether to approve the project and authorize funding. The enterprise strategy should be fully
explained in the business case developed for the information technology project.
The IRS spent $10 million and 32 months to develop the MIRSA Release 1 that was not
deployed. In addition, the goals of the IRS Restructuring and Reform Act and the Electronic
Government Act to provide taxpayers with online services were not met. The IRS expressed its
intent to reuse most of the hardware and functionality of MIRSA Release 1 in a future project
resurrection. However, at the time we completed our review, the IRS had not developed a
tangible plan or a time period for restarting the MIRSA project. Additionally, there were no
formal proposals to use the hardware or functionality that were developed for the MIRSA project
in any future information technology endeavors. Successful implementation of this effort is
essential to support taxpayers’ ability to electronically fulfill their tax responsibilities and is
critical to the long-term success of the IRS Modernization Program. If the IRS does not soon
develop a long-term strategy to further develop and deploy the MIRSA project and/or related
applications, the IRS may not realize the maximum benefit from its $10 million investment.


                                                                                                      Page 5
                              Changing Strategies Led to the Termination of the
                                          My IRS Account Project



Recommendation
Recommendation 1: To facilitate a possible future deployment of the MIRSA project, the
Chief Technology Officer should work with the Commissioner, Wage and Investment Division,
to complete a long-term strategy for the MIRSA project. If the project is restarted, the project
should be quickly deployed in order for the IRS to realize the maximum benefit from its
$10 million investment by reusing the hardware and functionality developed for MIRSA
Release 1.
           Management’s Response: IRS management agreed with our recommendation. The
           IRS is currently developing a comprehensive electronic strategy that will identify a set of
           electronic services for taxpayers, tax professionals, and other partners. The MIRSA
           project is among the electronic services being considered and, if it is determined the
           MIRSA project should be deployed, the IRS will address the components outlined in the
           recommendation to maximize potential taxpayer benefits.

An Electronic Authentication Strategy and Solution Needs to Be
Developed
The Office of Management and Budget Memorandum M-04-045 requires that secure
E-authentication controls be in place when remote users access a Federal Government
information technology system. E-authentication is the process of confirming an online user’s
identity when he or she electronically attempts to log in to a remote information system.
The IRS has not developed an enterprise-wide E-authentication strategy and solution to ensure
that remote taxpayers can securely access taxpayer data. According to MIRSA project
documentation, the E-authentication solution for MIRSA Release 1 was to be designed to adhere
to the authentication protocol being developed as part of the enterprise-wide E-authentication
Service project. However, because the E-authentication Service initiative was put on hold
in 2007 and its completion date was uncertain, the MIRSA project team developed its own
authentication service, known as the MIRSA Internet Taxpayer Authentication Services.
While MIRSA Release 1 was designed to allow remote taxpayers to read sensitive taxpayer data,
MIRSA Release 2 was designed to allow remote taxpayers to both read and modify sensitive
taxpayer data. Due to the increased functionality and ability to modify taxpayer data, Release 2
would require a higher level of E-authentication controls that were not developed as part of the
solution for Release 1.
Because an enterprise-wide E-authentication strategy and solution were not developed and the
project team had to develop its own interim solution, the project team experienced additional
major delays in the development of Release 1. Without an E-authentication solution, the IRS

5
    E-authentication Guidance for Federal Agencies, dated December 16, 2003.
                                                                                               Page 6
                              Changing Strategies Led to the Termination of the
                                          My IRS Account Project



cannot ensure taxpayers can securely access and modify their tax account information using the
Internet.

Recommendation
Recommendation 2: The Chief Technology Officer should ensure that a strategy to develop
and deploy an enterprise-wide E-authentication solution is developed as quickly as possible to
allow online projects that require secure access, such as the MIRSA project, to be deployed
without experiencing similar costly delays.
           Management’s Response: IRS management agreed with our recommendation. The
           Office of Privacy, Information Protection and Data Strategy, will partner with both the
           Modernization and Information Technology Services and the Electronic Tax
           Administration organizations to develop a strategy for delivery and deployment of an
           enterprise-wide E-authentication solution for all customer channels.

Formal Project Termination Procedures Need to Be Developed
When the decision to terminate the MIRSA project was made, the IRS had not developed formal
termination procedures for information technology projects that shut down prior to deployment.
The Department of the Treasury requires6 agencies to develop shutdown procedures for ensuring
the orderly termination of a system and to preserve vital information in the event the system, or
portions thereof, is reactivated. A disposition plan should be prepared to address all facets of
archiving, transferring, and disposing of the system and its data. Criteria outline the importance
of data preservation for effective migration (conversions) into another system or archival of
information for potential future access. Termination procedures preserve information about the
evolution of the system information through its life cycle.
In the absence of IRS project termination guidance, the MIRSA project team did not develop
formal project shutdown procedures at the onset of project planning. There were no disposition
plans in place to outline the steps for archiving, transferring, and disposing of the system and its
data. Specifically, there were no procedures for data preservation for effective migration
(conversions) into another system or archival of information for potential future access.
When it became apparent that the MIRSA project was going to be terminated, the project team
developed and executed a type of informal procedures to aide in this process. However, the
procedures were incomplete because they did not include a reactivation plan. With incomplete
project termination procedures, shutting down a project could result in loss of data during
migration (conversions) or archival of information in the event the system, or portions of the
system, is reactivated.


6
    Treasury Directive 84-01, Information System Life Cycle, Version 3.0, dated March 2002.
                                                                                              Page 7
                      Changing Strategies Led to the Termination of the
                                  My IRS Account Project



Recommendation
Recommendation 3: The Chief Technology Officer should ensure formal project termination
procedures are developed for information technology projects that are shut down prior to
deployment. At a minimum, these procedures should include a disposition plan addressing all
facets of archiving, transferring, and disposing of the system and its data.
       Management’s Response: IRS management agreed with our recommendation. The
       IRS has created a project shutdown guide for projects that are shut down prior to
       deployment. The new guide was approved on May 14, 2009, and provides instructions
       for archiving, transferring, and disposing of a system and its data.




                                                                                     Page 8
                               Changing Strategies Led to the Termination of the
                                           My IRS Account Project



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS established and followed
adequate internal controls to ensure efficient and effective management of the MIRSA project
development activities. To accomplish our objective, we:
I.         Determined whether the IRS and its contractors followed sound systems development
           practices and whether the project team:
           A. Had adequate program management processes in place to manage project activities.
           B. Maintained project management documents that were updated to provide complete
              requirements traceability.
           C. Instituted an adequate risk management process for managing project activities.
           D. Adequately managed project dependencies.
           E. Adequately managed testing activities.
           F. Had adequate contract management practices in place to manage all task orders1 for
              the project.
           G. Obtained an Independent Government Cost Estimate for the MIRSA project task
              order.
           H. Had an adequate process in place to shut down the MIRSA project.
II.        Reviewed systems security during project development by determining whether the
           system, when deployed into a production environment, was adequately protecting the
           confidentiality of taxpayer information. This included a review of the MIRSA
           E-authentication strategy and solution documentation. To accomplish this, we reviewed:
           A. Security categorization by reviewing IRS security categorization for the system under
              review and commented on the reasonableness of the security categorization decision.
           B. Security standards by considering the system’s assigned security categorization and
              reviewing relevant National Institute of Standards and Technology, Department of the
              Treasury, and IRS Internal Revenue Manual guidance concerning required security
              controls.
           C. System’s requirements documents.

1
    See Appendix V for a glossary of terms.
                                                                                            Page 9
                        Changing Strategies Led to the Termination of the
                                    My IRS Account Project



       D. Security testing and evaluation test results.
       E. Management’s risk mitigation efforts.
III.   Determined whether the MIRSA project was sufficiently incorporated into the
       Modernization Vision and Strategy plan and whether it was appropriately funded. This
       included discussions with IRS officials relating to the Modernization Vision and Strategy
       and funding process. (Auditor’s Note: We could not complete the work for this step
       because the IRS made the decision to terminate the MIRSA project.)
       A. Determined whether the project team provided estimated costs and benefits for the
          project as required by the Office of Management and Budget.
       B. For the projects listed in Exhibit-53, determined whether the IRS had adequate
          support documentation for the estimated costs and benefits.
       C. Determined whether additional MIRSA Release 1 funds were needed and, if so,
          determined the reasons and sources of funding.




                                                                                        Page 10
                       Changing Strategies Led to the Termination of the
                                   My IRS Account Project



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Kimberly R. Parmley, Audit Manager
Carol T. Taylor, Audit Manager
Suzanne M. Westcott, Lead Auditor
Myron L. Gulley, Senior Auditor
Joan Raniolo, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
William V. Carasik, Auditor




                                                                                       Page 11
                      Changing Strategies Led to the Termination of the
                                  My IRS Account Project



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Customer Account Services SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits SE:W:ETARC
Director, Stakeholder Management OS:CTO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Director, Program Oversight OS:CTO:SM:PO




                                                                                  Page 12
                         Changing Strategies Led to the Termination of the
                                     My IRS Account Project



                                                                                   Appendix IV

                                 Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $10 million (see page 4).

Methodology Used to Measure the Reported Benefit:
The MIRSA is an online project designed to allow taxpayers to securely view their tax account
and return information online. Release 1 of the MIRSA project was developed; however, the
project was terminated near the scheduled deployment date of the project. Currently, there is
neither a plan in place, nor a time period for restarting the MIRSA project or for incorporating
the functionalities into other solutions in the future. If the IRS does not develop a strategy soon
and complete the development of the MIRSA project, the IRS may not realize the maximum
benefit from its $10 million investment.
We obtained actual MIRSA project costs from IRS management and combined them by adding
Fiscal Years 2006 – 2008 project cost summaries to both the Modernization and Information
Technology Services organization internal labor costs and Release 1 termination activities costs.
    Fiscal Years 2006 – 2008 project costs listed in cost summaries                   $8.2 million
    IRS Modernization and Information Technology Services organization
    internal labor costs and project termination activities                           $1.8 million
    Total                                                                           $10.0 million




                                                                                            Page 13
                        Changing Strategies Led to the Termination of the
                                    My IRS Account Project



                                                                                Appendix V

                              Glossary of Terms

Application for Automatic    A form used to request an automatic extension of time to file a
Extension of Time to File    United States individual income tax return.
U.S. Individual Income Tax
Return (Form 4868)
Archival                     A collection of files packaged together as a type of final backup
                             into one compressed file.
Change of Address            A form used to notify the IRS of a change of address and to report
(Form 8822)                  a change of name.
E-authentication Service     Designed to support the new portal implementation with projects
project                      such as the MIRSA and ensure compliance with the
                             Government-wide electronic authentication requirements.
Electronic Authentication    The process of establishing confidence in user identities
                             electronically presented to an information system. Systems can
                             use the authenticated identity to determine whether that individual
                             is authorized to perform an electronic transaction.
Enterprise Life Cycle        A structured business systems development method that requires
                             the preparation of specific work products during different phases
                             of the development process.
Executive Steering           Oversees investments, including validating major investment
Committee                    business requirements, and ensures that enabling technologies are
                             defined, developed, and implemented.
Exhibit 53                   An agency’s Information Technology Investment Portfolio
                             required by the Office of Management and Budget that
                             demonstrates the agency’s management of Information
                             Technology investments and how these governance processes are
                             used when planning and implementing information technology
                             within the agency.
Information Technology       An executive group that oversees the overall progress of a project
Project Control Reviews      to include risk assessments and budget and performance issues.



                                                                                        Page 14
                          Changing Strategies Led to the Termination of the
                                      My IRS Account Project




Internet Refund Fact of       A project – also known as “Where’s My Refund?” – that provides
Filing                        tax refund status information using the Internet to Form 1040
                              series filers who are eligible to receive a refund.
Internet Taxpayer             An authentication solution developed by the MIRSA project team
Authentication Services       due to the absence of an enterprise-wide E-authentication solution.
                              Authentication for the MIRSA Release 1 project is enabled using
                              the Internet Taxpayer Authentication Services.
Migration                     The process of translating data from one format to another. Data
                              migration or conversion is necessary when an organization
                              decides to use a new computing or database management system
                              that is incompatible with the current system. Also, it is defined as
                              the process of moving data from one storage device to another.
Online Payment Agreement      A project that allows taxpayers or their authorized representatives
                              to set up a monthly payment plan, request a short-term deferral to
                              pay the tax, or pay the tax in full.
Power of Attorney and      A form that authorizes an individual to represent another
Declaration of             individual before the IRS. The individual must be a person
Representative (Form 2848) eligible to practice before the IRS.
Project Management Plan       A plan that defines program projects, the scope of work to be
                              performed for each project, and the planned methodology and
                              deliverables for the project.
Task Order                    An order for services placed against an established contract.
Web-based Application         An application that is accessible using web browsers over a
                              network such as the Internet or an Intranet. It is also a computer
                              software application that is coded in a browser supported language
                              and reliant on a common web browser to render the application
                              executable.
Work Breakdown Structure      A deliverable-oriented grouping of project elements that organizes
                              and defines the total scope of the project.




                                                                                          Page 15
        Changing Strategies Led to the Termination of the
                    My IRS Account Project



                                                   Appendix VI

Management’s Response to the Draft Report




                                                            Page 16
Changing Strategies Led to the Termination of the
            My IRS Account Project




                                                    Page 17
Changing Strategies Led to the Termination of the
            My IRS Account Project




                                                    Page 18
